Covers 1-4.qxd   12/18/08   11:04 AM   Page 1
Covers 1-4.qxd   12/18/08   11:04 AM   Page 2




                                                       U.S. Department of Energy

                                                       Office of Inspector General



                                                                       HOTLINE

                                                       Call the HOTLINE if you suspect
                                                Fraud, Waste, Abuse, or Mismanagement
                                                             by a DOE Employee,
                                                        Contractor, or Grant Recipient



                                                                 Call
                                                   1-800-541-1625 or (202) 586-4073

                                                Additional information on the OIG and reports can be found at
                                                                    www.ig.energy.gov




                                                               U.S. Department of Energy
                                                               1000 Independence Avenue, S. W.
                                                                   Washington, DC 20585
Message from the Inspector General

I am pleased to present the Office of Inspector General’s Strategic Plan covering
  Fiscal Years 2009-2013. The Strategic Plan offers a glance at our long term effort to
work with the Department of Energy’s leadership to improve the management and
performance of the Department’s programs and operations.

As we implement this Strategic Plan, our objective is to continue to play a critical role
in protecting and preserving the Department’s assets and resources. We will focus on
mitigating those management challenges facing the Department through continued
collaboration and cooperation with the Secretary and Department senior management.
An equally important goal is aggressively exercising our statutory law enforcement authority
to prevent and detect those attempting to defraud the Department. Unfortunately, given
the complexity of the Department’s operations and the associated spending levels, the risk
of fraud is a constant challenge, one which receives our utmost attention.

Finally, execution of this Plan is not possible without the efforts of each member of my
staff. They consistently demonstrate a commitment to public service and, specifically, to
protecting taxpayer interests. Together with our stakeholders, we will continue our efforts
to facilitate positive change within the Department.




                                              Gregory H. Friedman
                                              Inspector General
This page intentionally left blank.
                                                   S T R AT E G I C P L A N F Y 2 0 0 9 - 2 0 1 3




Table of Contents


    I. Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


   II. Vision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


  III. Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


  IV. Authority and Responsibilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


   V. Other Mandates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


 VI. Our Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


VII. Relationship Between the Department and OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


VIII. Our Strategic Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


 IX. Linkage of OIG Strategic Plan to Annual Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


  X. Critical External Influences . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8




                                                                             iii
This page intentionally left blank.
                                       S T R AT E G I C P L A N F Y 2 0 0 9 - 2 0 1 3




I. Introduction                                                  This strategic plan reflects the vision for how the
                                                                 organization will move forward in the 21st century
                                                                 to ensure the Department continues to serve the
The Department of Energy (Department)                            American public safely, effectively, and efficiently.
Organization Act created the Department in                       Through its strategic planning efforts, the OIG
October 1977. That law brought together for the                  will continue to play a critical role in assisting the
first time, not only most of the government’s                    Department’s leadership and the Congress by
energy programs, but also science and technology                 identifying opportunities for improving
programs and defense responsibilities that included              management, program performance, and
the design, construction, and testing of nuclear                 accountability. The OIG’s strategic goal is to
weapons. Over its history, the Department has                    perform a robust review program that provides
shifted its emphasis and focus as the energy and                 timely, relevant performance information and
security needs of the Nation have changed. Today,                recommendations to improve the performance of
the Department stands at the forefront of helping                the Department’s programs and operations,
the Nation meet our energy, scientific,                          facilitate positive change, and combat unlawful
environmental, and national security goals.                      activities within the Department.

The responsibility of the Office of Inspector
General (OIG) is to ensure that the
Department is:
                                                                 II. Vision
   ■   Fulfilling its program and operational
       goals effectively;                                        To be a highly effective organization that
                                                                 promotes positive change by identifying
   ■   Using its resources efficiently in this pursuit;          opportunities for improvements in the
                                                                 performance and efficiency of the Department’s
   ■   Operating within the scope of its                         programs and operations.
       legislative mandates;

   ■   Meeting the President’s Management
       Agenda; and,
                                                                 III. Mission
   ■   Addressing Departmental priorities
       established by the Secretary.                             To promote the effective, efficient, and
                                                                 economical operation of the Department
The OIG accomplishes this by performing audits,                  through audits, investigations, inspections,
investigations, and inspections of the Department’s              and other reviews to detect and prevent waste,
programs and operations seeking to uncover                       fraud, abuse, and violations of law.
existing or potential weaknesses that could result
in fraud, waste, and abuse.




                                                             1
                                    S T R AT E G I C P L A N F Y 2 0 0 9 - 2 0 1 3




IV. Authority and                                                      Government Management Reform Act
                                                                   ■
                                                                       (GMRA) of 1994. Annual audit of
                                                                       Department-wide and designated
    Responsibilities                                                   component financial statements. This effort
                                                                       currently requires approximately 24 percent
The Inspector General Act of 1978, as amended,                         of the OIG’s resources, including contractual
requires the OIG to:                                                   assistance from an external audit firm.

   ■   Conduct independent and objective audits                    ■   National Defense Authorization Act
       and investigations;                                             of 2000. Annual review of Department
                                                                       policies and procedures with respect to the
   ■   Promote economy, efficiency, and                                export of sensitive U.S. military technologies
       effectiveness;                                                  and information to countries and entities
                                                                       of concern.
   ■   Prevent and detect waste, fraud, and abuse;
                                                                   ■   Reports Consolidation Act of 2000.
   ■   Review pending legislation and regulations;                     Annual audit to identify the most significant
       and,                                                            management and performance challenges
                                                                       facing the Department.
   ■   Keep the Secretary and Congress fully and
       currently informed.                                         ■   Federal Information Systems Management
                                                                       Act (FISMA) of 2002. Annual review of
                                                                       Department information security systems.

                                                                   ■   Section 522 of the Consolidated
V. Other Mandates                                                      Appropriations Act of 2005. Biennial
                                                                       review of the actions of the Department’s
   ■   Government Performance and Results Act                          Chief Privacy Officer.
       (GPRA) of 1993. Continuous review of the
       Department's implementation.                                ■   Department of Energy Orders. Audits of
                                                                       statements of costs incurred and claimed by
   ■   Executive Order 12863, "President's                             the Department’s integrated contractors.
       Foreign Intelligence Advisory Board,"
       1993. Reports to the Intelligence
       Oversight Board as required quarterly and
       "as necessary or appropriate." This includes
       reviews to ensure the Department's
       intelligence activities are conducted in
       accordance with existing requirements of
       Executive Order 12333, "United States
       Intelligence Activities."




                                                          2
                                       S T R AT E G I C P L A N F Y 2 0 0 9 - 2 0 1 3




VI. Our Organization                                             Office of Investigations (OI) conducts
                                                                 investigations into alleged violations of law that
                                                                 impact Department programs, operations,
As mandated by the Inspector General Act of                      facilities, and personnel. Priority is given to
1978, as amended, the OIG is an independent                      investigations of suspected violations of criminal
and objective office that promotes the effective                 and civil statutes, as well as serious administrative
operation of the Department, including the                       misconduct. Criminal investigators within the
National Nuclear Security Administration                         OI work closely with Department of Justice
(NNSA) and the Federal Energy Regulatory                         prosecutors and other Federal, State and local law
Commission (FERC).                                               enforcement organizations utilizing a full range of
                                                                 law enforcement authorities, such as carrying
Specifically, as part of its independent status,                 firearms, applying for and executing search
the OIG:                                                         warrants, and making arrests. The work of
                                                                 OI, however, extends beyond the conduct
    ■   Provides the Secretary with an impartial                 of investigations – namely, OI identifies
        set of "eyes and ears" to evaluate                       opportunities for improving the economy
        management practices;                                    and efficiency of Department programs and
                                                                 operations by issuing reports that recommend
    ■   Acts as fact-finders in high profile,                    positive change.
        controversial matters;
                                                                 Office of Inspections (INS) conducts
    ■   Apprehends those attempting to defraud the               performance and allegation-based inspections,
        Government and the people of the United                  as well as special inquiries in response to
        States; and,                                             concerns raised by Congress, senior managers
                                                                 of the Department, and others. INS also
    ■   Ensures the taxpayers have a "seat at the                manages the OIG Hotline and Management
        table" when decisions are made as to how                 Referral Systems. INS facilitates management
        their money is spent.                                    reform in the Department by evaluating and
                                                                 providing recommendations to improve
The OIG consists of the Immediate Office of the                  program performance.
Inspector General and the following components:
                                                                 Office of Counsel provides legal advice and
Office of Audit Services (OAS) concentrates its                  assistance to the Inspector General on a wide range
efforts on economy, efficiency and program                       of issues.
reviews, while maintaining sound oversight of the
financial statement audit. OAS strives to provide                Office of Resource Management provides
reliable, credible financial and performance                     administrative and management support to the
information to senior management, the Congress,                  OIG. It also formulates and executes the budget
and the taxpayers. OAS is organizationally aligned               and is responsible for all human resource support
with the Department’s programmatic lines in                      activities, information technology, strategic
national security and energy; as well as in                      planning, performance reporting, and property
environment, science, financial, technology, and                 management.
corporate operations.




                                                             3
                                  S T R AT E G I C P L A N F Y 2 0 0 9 - 2 0 1 3




                     Office of Inspector General Organizational Chart

                                           Inspector General
                                              Principal Deputy
        Counsel
                                             Inspector General




         Audit Services                Investigations & Inspections                  Resource Management




                          Investigations                                   Inspections




In addition to the Headquarter offices, OIG offices are located at key Department sites around the nation.



                                  Location of OIG Field Offices




                                                        4
                                      S T R AT E G I C P L A N F Y 2 0 0 9 - 2 0 1 3




VII. Relationship Between                                       must ensure that its resources and activities cover
                                                                the issues and concerns most critical to the
                                                                Department.
     the Department
     and OIG                                                    Goal 1:
Since 1997, the OIG has provided the Secretary                       Promote the President’s Management
and Congress with an annual assessment of the                        Agenda and the Mission Priorities of the
most serious management challenges confronting                       Secretary and Congress.
the Department. These challenges parallel a
number of key Department priorities and
Presidential initiatives around which the OIG plans
much of its work. The following are the OIG-                    Objective 1:
identified Management Challenges for FY 2009:
                                                                     Conduct reviews seeking positive change in the
    ●   Contract and Project Management                              Department relating to the implementation of
                                                                     the initiatives in the President’s Management
    ●   Safeguards and Security                                      Agenda, the Secretary’s Priorities, and the
                                                                     OIG-identified Management Challenges.
    ●   Environmental Cleanup

    ●   Stockpile Stewardship                                   Performance Measures:
    ●   Cyber Security
                                                                     ■   Complete reviews that address each
    ●   Energy Supply                                                    Presidential, Secretarial, and OIG initiative,
                                                                         priority, and/or challenge.
In addition to responding to requests for special
reviews or investigations from the Secretary and                     ■   At least 50 percent of inspection reports will
Congress, the OIG continuously performs reviews                          address security-related topics.
at the Department through various planned audits
and inspections utilizing a risk-based methodology
to focus our efforts on the most important issues               Goal 2:
and concerns critical to the administration, the
Congress, and the U.S. Taxpayer.                                     Improve economy and efficiency and
                                                                     reduce waste, fraud, and abuse within
                                                                     the Department.


VIII. OIG Strategic Plan                                        Objective 2:
Our work is important to the Department’s success                    Concentrate OIG efforts on issues that
in fulfilling its Strategic Plan to address the energy,              have the greatest impact and usefulness to
science, environmental, and nuclear security                         the Department.
challenges and mission-related goals. The OIG


                                                            5
                                      S T R AT E G I C P L A N F Y 2 0 0 9 - 2 0 1 3




Performance Measures:                                                ■   Ensure that the average time to issue
                                                                         Investigative Reports to Management is
   ■   Ensure that every performance review includes                     55 days or less following final resolution of
       an analysis of program accomplishments and                        criminal and civil investigations.
       the use of metrics to measure results.
                                                                     ■   Complete the field work for 70 percent of
   ■   Ensure that 57 percent of all performance                         inspections within 60 work days.
       audits include recommendations leading to
       demonstrable cost savings, program
       efficiencies, and/or funds put to better use.            Objective 4:
   ■   Complete five follow-up reviews annually to                   Strengthen financial management and cyber
       determine the status and efficacy of                          security through completion of mandatory
       corrective actions.                                           reviews in accordance with Office of
                                                                     Management and Budget and other
   ■   Complete an annual risk-based                                 applicable requirements.
       programmatic assessment that considers OIG
       institutional knowledge; past program
       performance; funding levels; Presidential,               Performance Measures:
       Secretarial, and congressional concerns; and,
       input from Department program managers.                       ■   Complete annually the Department’s
                                                                         consolidated financial statement audits to
   ■   Ensure that 80 percent of all planned                             determine whether the financial statements
       performance audits address high-risk areas as                     are free from material misstatement.
       identified in the OIG annual risk-based
       programmatic assessments.                                     ■   Review the Department’s classified and
                                                                         unclassified information security system
   ■   Strive for the Department to accept at least                      programs in accordance with the Federal
       79 percent of OIG report recommendations.                         Information Security Management Act
                                                                         of 2002.

Objective 3:                                                         ■   Initiate 10 “Statement of Costs Incurred and
                                                                         Claimed” audits annually to assess internal
   Provide timely information to the Department                          controls over costs claimed by the
   so that prompt action can be taken to improve                         Department’s major contractors.
   program performance.

                                                                Objective 5:
Performance Measures:
                                                                     Concentrate investigative efforts on allegations
   ■   Issue 80 percent of audit reports no later                    of criminal and civil violations of law that
       than 60 days following receipt of                             adversely impact major Department programs
       management comments.                                          and operations, with emphasis on maximizing
                                                                     the recovery of public resources and deterring
                                                                     future wrongdoing.


                                                            6
                                     S T R AT E G I C P L A N F Y 2 0 0 9 - 2 0 1 3




Performance Measures:
                                                               Goal 3:
   ■   Achieve an annual acceptance rate of 72
       percent for cases presented for prosecutorial                Support the Taxpayer.
       consideration.

   ■   Ensure 75 percent of all cases opened focus
                                                               Objective 8:
       on key areas of Department vulnerability,
       specifically procurement and grant fraud,
                                                                    Provide the Department and the public with
       environmental violations, Qui Tams, or
                                                                    an effective and efficient mechanism to report
       computer crimes.
                                                                    waste, fraud, and abuse.


Objective 6:                                                   Performance Measures:

   Coordinate with other law enforcement                            ■   Operate the OIG Hotline in a manner that
   agencies to establish effective networks in order                    ensures 90 percent of Hotline complaints
   to identify areas that are most vulnerable to                        warranting further action begin processing
   waste, fraud, and abuse.                                             within 7 days of receipt.

                                                                    ■   Forward 90 percent of the complaints
Performance Measure:                                                    identified for referral to Department or other
                                                                        agency management within 14 days of
   ■   Ensure 25 percent of all cases opened are                        initiation of the case.
       joint agency/task force investigations with
       external law enforcement agencies, such as
       the Federal Bureau of Investigation and
                                                               Objective 9:
       other OIGs.
                                                                    Make the public aware of OIG reports.

Objective 7:
                                                               Performance Measure:
   Heighten awareness of potential fraud among
   internal and external customers.                                 ■   Ensure that all OIG public reports that were
                                                                        identified for inclusion on the Internet are
                                                                        posted within three working days of
Performance Measure:                                                    submission to the Secretary, unless otherwise
                                                                        specified by the Inspector General.
   ■   Provide 28 fraud awareness briefings
       annually to Department and contractor
       employees and managers.




                                                           7
                                     S T R AT E G I C P L A N F Y 2 0 0 9 - 2 0 1 3




Objective 10:                                                  X. Critical External
   Provide a structure for ensuring a skilled and
   efficient workforce.
                                                                  Influences
                                                               Each year, the OIG is requested to conduct quick
Performance Measures:                                          turnaround, unplanned, and resource intensive
                                                               reviews. These requests directly impact the OIG’s
   ■   Ensure that all auditors meet the training              workload, formulating budgets, evaluating
       requirements as specified by generally                  procedures, and establishing priorities. Examples
       accepted Government Auditing Standards.                 include:

   ■   Ensure that all investigators meet the                       ■   Secretarial/Congressional Priorities.
       training requirements as specified by Federal                    Emerging mission-related priorities require
       law enforcement and other related                                the Secretary to request the OIG to conduct
       investigative standards.                                         related reviews. Also, the OIG regularly
                                                                        receives requests from various members of
   ■   Ensure that all inspectors meet the training                     Congress and their staffs to conduct reviews
       requirements as specified by the President’s                     and provide information and to participate
       Council on Integrity and Efficiency “Quality                     in briefings and hearings. These requests are
       Standards for Inspections.”                                      usually unanticipated and require immediate
                                                                        attention. Satisfying these requests often
                                                                        affects the OIG’s progress in achieving its
                                                                        strategic planning goals.

IX. Linkage of OIG                                                  ■   New Statutory Requirements.
                                                                        New legislative mandates and unfunded
    Strategic Plan to                                                   audit, investigative, inspection, or special
                                                                        inquiry requirements divert resources away
    Annual Plan                                                         from other critical areas, including evaluating
                                                                        the performance of the Department’s
This strategic plan is the blueprint for the annual                     programs and operations as they relate to
planning process. The OIG Annual Plan sets                              the President's Management Agenda, the
specific targets for each of our performance                            Secretary’s mission priorities, and the most
measures for the coming fiscal year, planned audits                     serious management challenges facing
and inspections priorities, and presents projects                       the Department.
that will be performed, incremental target level
increases, and expected target dates. Additionally,
OIG accomplishments will be reported in our
Semiannual Report to Congress bi-annually –
April and September.




                                                           8
Covers 1-4.qxd   12/18/08   11:04 AM   Page 2




                                                       U.S. Department of Energy

                                                       Office of Inspector General



                                                                       HOTLINE

                                                       Call the HOTLINE if you suspect
                                                Fraud, Waste, Abuse, or Mismanagement
                                                             by a DOE Employee,
                                                        Contractor, or Grant Recipient



                                                                 Call
                                                   1-800-541-1625 or (202) 586-4073

                                                Additional information on the OIG and reports can be found at
                                                                    www.ig.energy.gov




                                                               U.S. Department of Energy
                                                               1000 Independence Avenue, S. W.
                                                                   Washington, DC 20585
Covers 1-4.qxd   12/18/08   11:04 AM   Page 1
